GR-70-98-009
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the New Haven, Connecticut Police Department
 
GR-70-98-009
December 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the New Haven Police Department (New Haven). New
Haven was awarded a total of $2,187,556 in COPS grants to hire 25 new sworn police
officers and redeploy 6.3 full-time-equivalent (FTE) sworn police officers from
administrative duties to community policing.

Based on our audit, we found that New Haven properly managed the COPS grants:



Since the inception of the COPS grants, the number of officers budgeted has not
      decreased below 1994, the year before the grant.




New Haven appeared to be making a good-faith effort to fill officer vacancies.




Local matching funds were appropriately provided from funds not already budgeted for law
      enforcement purposes.



However, we found the following weaknesses with regard to meeting the conditions of the
  grant:



New Haven did not always submit timely and accurate monitoring reports.




New Haven did not increase the number of officers performing community policing
      activities by the number of officers funded under the grant.


These items are discussed in the Findings and Recommendations section of the report.
Our Scope and Methodology appear in the Appendix.
#####